            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2005

      March 2008   A-77-08-00012




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
 MEMORANDUM
 Date:     March 28, 2008                                                     Refer To:

 To:       Candace Skurnik
           Director
           Audit Management and Liaison Staff

 From:     Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico,
           Department of the Family, for the Fiscal Year Ended June 30, 2005 (A-77-08-00012)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Puerto Rico, Department of the Family (PRDF), for the
           fiscal year (FY) ended June 30, 2005. Our objective was to report internal control
           weaknesses, noncompliance issues, and unallowable costs identified in the single audit
           to SSA for resolution action.

           Torres Llompart, Sanchez Ruiz, LLP performed the audit. Results of the desk review
           conducted by the United States Department of Agriculture (USDA) have not been
           received. We will notify you when the results are received if USDA determines the audit
           did not meet Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by Torres Llompart,
           Sanchez Ruiz, LLP, and the reviews performed by USDA. We conducted our review in
           accordance with the Quality Standards for Inspections issued by the President’s Council
           on Integrity and Efficiency.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Puerto Rico Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The PRDF is
           the Puerto Rico DDS’ parent agency.
Page 2 - Candace Skurnik


The single audit reported:

1. Documentation was missing from employees’ personnel files and controls were
   inadequate to ensure that employees whose salaries were charged to Federal funds
   performed duties related to the program charged (Attachment A, Pages 1 through 5).
   The corrective plan indicates that a taskforce was organized to review all personnel
   files and ensure documentation was complete (Attachment A, Page 6).

2. The PRDF did not adhere to the requirements for developing and maintaining
   clearance patterns as specified in the Treasury-State Agreement. Specifically, for
   the SSA programs, request for reimbursement was not made for 10 adjustments
   totaling $1,553,196; and information related to the request for funds was not
   available for the auditors to review for eight transactions totaling $1,205,214
   (Attachment A, Pages 7 through 13). The corrective action plan indicates a
   reminder was issued to maintain adequate documentation to support the requests
   for reimbursement and improve internal controls over filing and safeguarding
   documents for requests for reimbursement (Attachment A, Pages 14 and 15).

3. Expenditures totaling $408,296 were charged to the SSA program for obligations
   that were incurred after the end of the period of availability (Attachment A,
   Pages 16 through 20). The corrective action plan indicates that a new record
   keeping system was implemented which will help improve accounting for obligations
   (Attachment A, Pages 21 through 23).

4. Unliquidated obligations reported on the State Agency Report of Obligations for SSA
   Disability Programs (SSA-4513) did not agree with the PRDF’s accounting records.
   Specifically, the SSA-4513 was understated by $1,334,861 (Attachment A,
   Pages 24 and 25). A corrective action was not included in the report (Attachment A,
   Page 26).

The Office of the Inspector General conducted an audit of Administrative Costs Claimed
by the Commonwealth of Puerto Rico Disability Determination Program that covered the
period of this single audit. 1 The administrative cost audit reviewed the areas where the
single audit reported findings – personnel, cash management, expenditures, and
unliquidated obligations – and made recommendations as appropriate. Therefore, we
will not make recommendations on these single audit findings.

The single audit also disclosed the following findings that may impact the DDS’
operations although they were not specifically identified to SSA. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency.




1
 Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability Determination Program
(A-06-06-16117) March 26, 2007.
Page 3 - Candace Skurnik


•   The lack of an overall control and record keeping system, including record retention
    and filing of required documents, resulted in untimely reports and inaccurate
    accounting records (Attachment B, Pages 1 through 5).

•   PFDF did not (a) have controls and procedures in place to document allowability of
    expenditures, including administrative costs, (b) did not have the proper reviews and
    authorizations for processing these expenditures, and (c) did not separate
    administrative expenses (2) according to the proper program (Attachment B,
    Pages 6 through 13).

•   Internal controls over equipment were inadequate and property records were not
    provided (Attachment B, Pages 14 through 17).

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have any questions contact Shannon Agee at (816) 936-5590.




                                                Patrick P. O’Carroll, Jr.

Attachment
